Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  Medicare Part B Payments for
    Mental Health Services




                        MAY 2001
                      OEI-03-99-00130
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito, Regional
Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                              HEADQUARTERS

Amy Sernyak, Project Leader                  Bambi Straw, Program Specialist
Lauren McNulty, Program Analyst                    Barbara Tedesco, Mathematical Statistician
Tanaz Dutia, Program Analyst                 Linda Moscoe, Technical Support Staff
Stacey Uhl, Program Analyst




 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
                        EXECUTIVE                      SUMMARY

PURPOSE

         To assess the appropriateness of Medicare Part B payments for mental health services
         provided to Medicare beneficiaries in the following outpatient settings: practitioners’ offices,
         community mental health centers, beneficiaries’ homes, and custodial care facilities.


BACKGROUND

         Medicare and its beneficiaries paid an estimated $1.2 billion for Part B mental health services in
         1998. Payments for mental health services provided in outpatient settings accounted for about
         62 percent of this total ($718 million).

         Part B claims for mental health services are processed and paid by Medicare carriers that
         contract with the Health Care Financing Administration (HCFA). Section 1862 (a)(1)(A) of
         the Social Security Act states that all Medicare Part B services, including mental health
         services, must be “reasonable and necessary for the diagnosis or treatment of an illness or injury
         or to improve the functioning of a malformed body member.” To date, HCFA has not
         established a national medical review policy for all carriers to follow in assessing the
         appropriateness of claims for mental health services. Rather, carriers develop local medical
         review policies that describe the medical criteria beneficiaries must meet for particular mental
         health services to be considered medically necessary and appropriate, as well as criteria for
         satisfactory documentation of mental health services.

         For this inspection, we selected a stratified random sample of 1998 claims for outpatient mental
         health services. The sample included claims for individual psychotherapy, group
         psychotherapy, psychological testing, and pharmacologic management. We collected mental
         health records from Medicare providers in support of sampled services. An independent
         medical review contractor examined the records to make determinations about the medical
         necessity and appropriateness of mental health services.


FINDINGS

Medicare allowed $185 million in 1998 for inappropriate outpatient mental health
services

         One-third of outpatient mental health services provided to Medicare beneficiaries were
         medically unnecessary, billed incorrectly, rendered by unqualified providers, and undocumented
         or poorly documented. For 25 percent of all sample mental health services, independent
         medical reviewers determined that beneficiaries’ medical records


Medicare Mental Health Services                    i                             OEI-03-99-00130
         did not support claims reimbursed by Medicare. For another 6 percent of services, mental
         health service providers did not submit beneficiaries’ medical records after three written OIG
         requests; and for another 3 percent of services, providers submitted a response that did not
         contain any medical documentation.

Problems were found with all types of mental health services reviewed, but
psychotherapy and psychological testing were particularly problematic

         Fifty percent of group therapy and 34 percent of individual therapy services reviewed were
         inappropriate, along with over 40 percent of psychological testing services. To a lesser extent,
         we also found inappropriate pharmacologic management services and services that were
         rendered by unqualified providers.

While some beneficiaries received excessive therapy services, others did not
receive needed medication management services

         Twenty-two percent of medical records revealed that patients received mental health services

         beyond what was medically indicated and necessary. In these cases, medical records did not

         justify the duration or frequency of psychotherapy services. More than

         8 percent of medical records indicated that beneficiaries may not have received needed

         services. According to many of these records, patients who were receiving psychotherapy

         services should have been evaluated for psychotropic medication.



RECOMMENDATIONS

In order to address Medicare program vulnerabilities discussed in this report, we
recommend that the Health Care Financing Administration:

C	       Target problematic mental health services for pre-payment edits or post-payment
         medical review.

C	       Promote provider awareness of documentation and medical necessity requirements for
         Part B mental health services. The HCFA and its carriers could enhance provider
         understanding of and compliance with Medicare requirements through seminars, education
         workshops, and newsletters.

C	
C        Work with both carriers and mental health professionals to develop a specific and
         comprehensive listing of psychological assessments that can be correctly billed under
         psychological testing code 96100. Our office made a similar recommendation in a recently
         issued report entitled “Medicare Payments for Psychiatric Services in Nursing Homes: A
         Follow-up,” which found similar problems with psychological testing instruments.




Medicare Mental Health Services                   ii                            OEI-03-99-00130
C	       Require Medicare carriers to initiate recovery of payments for the inappropriate
         outpatient mental health services identified in this report. Our office will provide a listing
         of these claims to HCFA.


AGENCY COMMENTS

The Health Care Financing Administration concurred with these recommendations. The HCFA will ask
Medicare carriers to conduct data analysis of mental health services provided in outpatient settings with
particular attention to psychological testing and psychotherapy services. The HCFA stated that they
plan to explore a number of provider educational services that will focus on issues of medical necessity,
medical record documentation, provider qualifications, and appropriate billing and coding of outpatient
mental health services. In addition, HCFA will have the carrier clinical workgroup on psychiatric
services consider our report in developing a local medical review policy template for outpatient mental
health services. Finally, HCFA will direct Medicare carriers to recover overpayments for the
inappropriate services identified in our report. To assist HCFA with this effort, we have provided claim
data for the inappropriate services to them. In response to HCFA’s technical comment, we revised
Appendix A of the report to reflect the most current Medicare provider qualifications as cited in Title
42, Part 410 of the Code of Federal Regulations. The full text of HCFA’s comments is presented in
Appendix E.




Medicare Mental Health Services                  iii                           OEI-03-99-00130
                          TABLE                        OF              CONTENTS

                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Payments for Inappropriate Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Problematic Mental Health Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Some Patients Received Excess Services; Others Needed Services . . . . . . . . . . . . . . . . . 9


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


          A: Medicare Provider Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          B: OIG Reports on Medicare Mental Health Services . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          C: Sample Procedure Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


          D: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


          E: Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . 22





Medicare Mental Health Services                                   iv                                         OEI-03-99-00130
                                  INTRODUCTION

PURPOSE

         To assess the appropriateness of Medicare Part B payments for mental health services
         provided to Medicare beneficiaries in the following outpatient settings: practitioners’ offices,
         community mental health centers, beneficiaries’ homes, and custodial care facilities.


BACKGROUND

Mental Illness and Medicare Populations

         As defined by the Office of the Surgeon General, mental illness is “a term that refers collectively
         to all mental disorders. Mental disorders are health conditions that are characterized by
         alterations in thinking, mood, or behavior (or some combination thereof) associated with
         distress and/or impaired functioning.” People of all age groups can be affected by mental
         illness; and individuals in different stages of life may be susceptible to certain kinds of mental
         disorders. Older adults have their own special mental health problems and needs.

         The Medicare program covers people under age 65 with disabilities as well as those over age
         65. Over half of Medicare beneficiaries receiving mental health services in the outpatient
         settings we examined qualified for Medicare on the basis of disability rather than age.
         Fortunately, treatment interventions such as psychotherapy and medication can benefit
         individuals with mental illness in all age groups when tailored to meet the specific needs of each
         patient. Mental health services reimbursed by Medicare include psychiatric diagnostic or
         evaluative interview procedures, individual psychotherapy, group psychotherapy, family
         psychotherapy, psychoanalysis, psychological testing, and pharmacologic management.

Medicare Payments for Mental Health Services

         Medicare and its beneficiaries paid an estimated $1.2 billion for Part B mental health services in
         1998. Payments for mental health services provided in outpatient settings accounted for about
         62 percent of this total ($718 million). According to Medicare claims data, about 90 percent of
         outpatient mental health services occurred in office settings or in community mental health
         centers. The following services accounted for the majority of Medicare allowances for
         outpatient mental health services in 1998: individual psychotherapy with and without medical
         evaluation and management, pharmacologic management, group psychotherapy, diagnostic
         interview exam, and psychological testing.




Medicare Mental Health Services                   1                              OEI-03-99-00130
         While Medicare pays 80 percent of the allowed amount for most Part B services, the program

         pays only 50 percent of the cost for therapeutic mental health services provided in outpatient

         settings. Therefore, the beneficiary is responsible for a much larger Medicare co-payment for

         therapeutic outpatient mental health services. For diagnostic services such as psychological

         testing, the beneficiary is responsible for the standard

         20 percent co-payment.


Medicare Part B Coverage of Mental Health Services

         Part B claims for mental health services are processed and paid by Medicare carriers that
         contract with the Health Care Financing Administration (HCFA). Section 1862 (a)(1)(A) of
         the Social Security Act states that all Medicare Part B services, including mental health
         services, must be “reasonable and necessary for the diagnosis or treatment of an illness or injury
         or to improve the functioning of a malformed body member.” To date, HCFA has not
         established a national medical review policy for all carriers to follow in assessing the
         appropriateness of claims for mental health services. Rather, carriers develop local medical
         review policies based on Medicare coverage and documentation guidelines. These local
         policies describe the medical criteria beneficiaries must meet for particular mental health
         services to be considered medically necessary and appropriate. These policies also specify
         criteria for satisfactory documentation of mental health services.

         Local Medical Review Policy Coverage Criteria. Generally, a patient must have a
         psychiatric illness and/or emotional or behavioral symptoms for psychiatric therapeutic
         procedures such as individual and group psychotherapy to be covered. Symptoms, goals of
         therapy, and the patient’s capacity to participate in and benefit from psychotherapy must be
         documented in the patient’s medical record. Psychotherapy should improve or maintain a
         patient’s health status and functioning. Coverage of psychotherapy does not include teaching
         grooming skills, monitoring activities of daily living, recreational therapy, or social interactions.
         Individual psychotherapy with medical evaluation and management is covered for physicians
         only, with exceptions in certain States for appropriately licensed nurse practitioners, clinical
         nurse specialists, or physician assistants.

         Psychological testing is covered when it aids in determining a patient’s diagnosis and therapeutic
         planning. The patient’s medical record must indicate the presence or symptoms of mental
         illness, and document specific psychological tests performed, number of hours of testing,
         scoring, and interpretation of test results.

         Pharmacologic management is covered for in-depth management of a patient who is taking
         psychotropic medications. Evidence of mental illness should be documented in the patient’s
         medical record, along with the patient’s response to medication, side effects, medication or
         dosage changes, and compliance with the medication regimen. Pharmacologic management is
         covered for physicians only, with exceptions in certain States for appropriately licensed nurse
         practitioners, clinical nurse specialists, or physician assistants.


Medicare Mental Health Services                    2                               OEI-03-99-00130
Mental Health Service Providers

         According to current Medicare reimbursement guidelines, physicians, clinical psychologists,
         clinical social workers, nurse practitioners, clinical nurse specialists, and physician assistants are
         permitted to submit claims for mental health services provided to beneficiaries in outpatient
         settings. However, a provider must be qualified to perform the specific mental health service
         being billed to Medicare. Medicare definitions of these provider types are presented in
         Appendix A. Typically, qualified providers bill for mental health services using the Physician’s
         Current Procedural Terminology (CPT) codes published by the American Medical Association.

Previous OIG Work

         Since 1996 the Office of Inspector General (OIG) has issued a number of reports on mental
         health services provided to Medicare beneficiaries in nursing facilities, hospital outpatient
         departments, and partial hospitalization programs. The OIG found that many mental health
         services provided to beneficiaries in nursing facilities were medically unnecessary, highly
         questionable, and/or poorly documented. Reports identified problems including psychotherapy
         provided to patients who did not have the cognitive capacity to benefit from these services, and
         psychological testing services that were billed incorrectly.

         In addition, the OIG found that many outpatient mental health services billed by hospitals and
         partial hospitalization programs did not meet Medicare reimbursement requirements. These
         services were not supported by adequate documentation, were not medically necessary or
         appropriate for patients’ conditions, and were not rendered by licensed personnel. A listing of
         OIG reports on Medicare mental health services is provided in Appendix B.


METHODOLOGY

Sample Design

         The sample for this inspection consisted of outpatient individual psychotherapy services with
         and without evaluation and management; group psychotherapy services; pharmacologic
         management services; and psychological testing services. We included these services when
         provided in the following settings: practitioners’ offices, community mental health centers,
         beneficiaries’ homes, and custodial care facilities. We did not include services provided in
         partial hospitalization programs. Definitions of sample procedure codes are presented in
         Appendix C.

         We designed a sample with five strata based on type and place of service. We selected a
         stratified random sample of 650 claims from a 1 percent file of paid 1998 Part B claims. This 1
         percent file was created from HCFA’s 1998 National Claims History file, which was 98
         percent complete at the time of sample selection. After eliminating 8 claims for



Medicare Mental Health Services                    3                               OEI-03-99-00130
         providers under review by the Office of Investigations, our working sample consisted of 642
         claims. A description of the sample is presented in Table 1 below.
         Table 1. Outpatient Mental Health Services Sample

          Strata     Description                               Sampling   Selected         Working
                                                                Frame     Sample           Sample

          1          Home and Custodial Care Facility Claims    5,057       175               170

          2          Psychological Testing Claims                402        100               100

          3          Group Psychotherapy Claims                 7,789       70                69

          4          75-80 Minute Psychotherapy Claims          1,794       85                85

          5          All Other Claims                           81,414      220               218
          TOTAL                                                 96,456      650               642


Data Collection and Analysis

         We collected data from Medicare providers and a medical review contractor from February
         2000 to August 2000. We also collected local medical review policies for mental health
         services from Medicare carriers. Point estimates and confidence intervals for all statistics
         presented in the findings of this report are provided in Appendix D.

         Local Medical Review Policies. Since HCFA has not established a national medical review
         policy for mental health services, we requested local medical review policies for mental health
         services from each of the Medicare carriers. We systematically reviewed these policies to
         determine coverage and documentation requirements among the carriers.

         Medical Records. Using HCFA’s Unique Provider Identification Number (UPIN) database,
         we identified the names and addresses for the providers of the sample outpatient mental health
         services. We mailed providers written requests for Medicare beneficiaries’ medical records in
         support of sample services. Specifically, we requested each beneficiary’s initial psychiatric
         evaluation; psychological test results; all notes and documentation specific to the sample
         service; notes and documentation of services provided to the beneficiary three months prior to
         and three months after the sample date of service; and copies of providers’ State licenses. We
         sent a follow-up request to providers who did not respond to the initial request. A third and
         final request informed non-respondents that, for the purposes of our study, we would consider
         sample services undocumented if beneficiaries’ records were not submitted.

         We received responses for 547 of the 642 mental health services in our working sample. Of
         these responses, 14 contained no supporting medical documentation and were, therefore,
         considered inappropriate. Three responses were in Spanish and four were submitted after the
         data collection cutoff date. We did not consider these seven services to be inappropriate. The
         remaining 526 responses were forwarded to a medical review contractor.




Medicare Mental Health Services                          4                        OEI-03-99-00130
         We did not receive responses for 95 mental health services. For 52 of the 95 services,
         provider addresses in the UPIN database were inaccurate, and our requests for medical
         documentation were returned as undeliverable. We did not consider these services to be
         inappropriate. However, for the other 43 services, providers did not submit medical records
         after 3 written requests. We deemed these services to be inappropriate.

         Medical Review. We forwarded 526 mental health records to an independent medical
         review contractor for evaluation of medical necessity and appropriateness. For each
         beneficiary, we also included a listing of all 1998 outpatient mental health claims for sampled
         procedure codes. Mental health professionals employed by the contractor conducted the
         medical review of sample services using a data collection instrument jointly developed by OIG
         and the contractor. We developed this medical review instrument using guidelines common
         among Medicare carriers’ local medical review policies. The instrument included questions
         regarding symptoms, diagnosis, treatment goals and progress, medications, time spent with the
         patient, provider type, and provider qualifications.

         Three registered nurses and a master’s-level psychologist used the medical review instrument to
         examine the mental health records. These first-level reviewers recorded information about the
         appropriateness of the mental health services provided and the nature of the supporting
         documentation. When first-level reviewers identified questionable mental health services or
         documentation, the records were provided to the appropriate second-level reviewer, either a
         psychiatrist or clinical psychologist.

         Fifty-eight percent of the records (303 of 526) were referred to a second-level reviewer. The
         second-level reviewers determined whether beneficiaries’ records supported the sample mental
         health services that were billed to the Medicare program; and used the medical review
         instrument to record determinations about medical necessity, appropriateness of the services
         billed, provider qualifications, and documentation. These reviewers also examined
         beneficiaries’ medical records and claim histories to determine if beneficiaries received more
         services than necessary, or were in need of services that were not provided.

         Computation of Allowances for Inappropriate Services. To compute Medicare payments
         for inappropriate services, we totaled the allowed amounts for all inappropriate services and
         weighted the estimate to reflect our stratified sample design. However, we used adjusted
         allowed amounts in our calculation for 62 outpatient mental health services. For 59 individual
         psychotherapy services, medical reviewers determined that the service billed was inappropriate,
         but a shorter individual therapy session was substantiated. In these cases, only the difference in
         allowances for these services was included in the calculation. For three psychological testing
         services, reviewers determined that fewer hours of testing should have been billed. Again, we
         included only the difference between the allowed amount for the number of hours actually billed
         and the amount that would have been allowed for fewer hours of psychological testing.

         This inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.



Medicare Mental Health Services                   5                             OEI-03-99-00130
                                           FINDINGS

Medicare allowed $185 million in 1998 for inappropriate
outpatient mental health services
         One-third of outpatient mental health services provided to Medicare beneficiaries were
         medically unnecessary, billed incorrectly, rendered by unqualified providers, and undocumented
         or poorly documented. Payments for these inappropriate services totaled an estimated $185
         million, which represents 31 percent of the $598 million reimbursed in 1998. The estimate of
         $185 million includes beneficiary co-payments of 20 percent or 50 percent, depending on the
         type of service.

         For 25 percent of all sample mental health services, independent medical reviewers determined
         that beneficiaries’ medical records did not support claims reimbursed by Medicare. For 6
         percent of services, mental health service providers did not submit beneficiaries’ medical
         records after three written OIG requests. For another 3 percent of services, providers
         submitted responses that did not contain any medical documentation.

         The following information pertains to the 25 percent of sample mental health services that were
         not supported by patients’ records. Medical reviewers classified these inappropriate services
         into four general categories. As shown in Chart 1 below, 23 percent of these services were not
         medically necessary. Forty-one percent of services were billed incorrectly since providers
         billed Medicare for non-covered services, billed using the wrong code, or billed excessively.
         Eleven percent of services were rendered by providers who were not qualified to perform the
         services. Finally, 65 percent of services were insufficiently documented because medical
         records lacked critical information about patients’ conditions and details of the care provided.
         Many services were inappropriate for more than one of these reasons.

         Chart 1. Medical Review Determinations for Inappropriate Mental Health Services*


                    11%


                         23%


                                  41%


                                          65%


              0%     20%     40%    60%    80% 100%
                       Percent of Services


          * Percentages sum to over 100% because many services had more than one type of problem



Medicare Mental Health Services                           6                                   OEI-03-99-00130
Problems were found with all types of mental health services
reviewed, but psychotherapy and psychological testing were
particularly problematic
         While 16 percent of pharmacologic management services were inappropriate, between one-
         third and one-half of psychotherapy and psychological testing services were inappropriate. In
         addition, one out of every nine inappropriate services was rendered by an unqualified provider.

Half of the group psychotherapy services reviewed were inappropriate

         Fifty percent of group psychotherapy services were deemed inappropriate for one or more
         reasons. Medical records indicated that Medicare paid for group therapy that was non-
         covered, medically unnecessary, and/or poorly documented.

         About 40 percent of inappropriate group therapy services were non-covered services such as
         “social activity,” “exercise and discussion,” “community skills,” and “reality orientation” groups.
         Carriers’ local medical review policies specify that socialization, recreational activities,
         excursions, sensory stimulation, meals, and the like do not constitute group psychotherapy. In
         one inappropriate case, a therapist ran social activity groups rather than group psychotherapy.
         Activities included games, music, picnics, and sewing.

         Over one-quarter of inappropriate group psychotherapy services were not medically necessary
         because patients lacked the cognitive or communication skills necessary to participate in and
         benefit from group therapy; or because group psychotherapy was not the appropriate treatment
         for patients.

         Over half of inappropriate group therapy services were not adequately documented.
         Beneficiaries’ medical records lacked one or more critical elements including treatment plans
         and goals, progress in treatment, documentation of diagnosis and ability to participate in group
         therapy, and information about the content of group sessions. Some of the group therapy
         progress notes reviewed were very brief, or used “canned” language to describe each group
         session. Documentation for a few inappropriate group sessions did not include any evidence of
         who rendered the group psychotherapy services.

Thirty-four percent of individual therapy services reviewed were inappropriate

         Over one-third of individual psychotherapy services were inappropriate for two main reasons:
         extended length sessions were not justified, and documentation of individual therapy sessions
         lacked critical elements.

         For most 75 to 80 minute individual therapy services, documentation in patients’ records did
         not substantiate medical necessity, and practitioners did not provide justifications for treating
         patients with extended psychotherapy sessions. Carrier guidelines set forth



Medicare Mental Health Services                    7                              OEI-03-99-00130
         special documentation requirements for extended length individual psychotherapy services.
         These services “should not be routinely used. They are reserved for exceptional circumstances.
         The provider must document in the patient’s medical record the medical necessity of these
         services and define the exceptional circumstances.” Reviewers indicated that shorter therapy
         sessions of 45 to 50 minutes, or 20 to 30 minutes, were documented and medically indicated in
         most of these cases.

         In addition to inappropriate extended length therapy services, documentation of individual
         therapy lacked critical elements. Some therapy notes were very brief, including a case where
         notes for several psychotherapy sessions merely stated “same.” Patient records lacked
         treatment plans and goals, and evidence of patients’ diagnoses and progress. Progress notes
         for inappropriate services were often illegible and unsigned. As with group psychotherapy,
         documentation for a few individual therapy services also contained “canned” language, some of
         which appeared to be computer-generated. A number of inappropriate individual
         psychotherapy services with medical evaluation and management were not sufficiently
         documented. Patient records reflected therapy only, with no documentation of the evaluation
         and management component; or medication management only, with no documentation of
         therapy.

Over 40 percent of psychological testing services were billed incorrectly and
poorly documented

         Overall, 42 percent of the psychological testing services reviewed were inappropriate. Almost
         half of these inappropriate services consisted mainly of self-administered, self-scored, or
         cognitive function screening tests like the Beck Depression Inventory, the Geriatric Depression
         Scale, the McGill Overall Pain Scale, and the Folstein Mini-Mental Status Exam. While
         carriers’ policies do not contain comprehensive lists of psychological tests that are correctly
         billed under psychological testing code 96100, most state that this code should not be billed for
         self-administered or self-scored instruments, or for screening tests of cognitive function. These
         types of assessments are considered to be part of a clinical interview or evaluation and
         management service, and are not reimbursed separately.

         Some psychological testing services were not sufficiently documented. Patients’ medical
         records lacked the amount or type of information necessary to support psychological testing
         claims. Records for about one-third of inappropriate psychological testing services did not
         include a written report interpreting beneficiaries’ test results and making treatment
         recommendations. However, carriers’ guidelines, as well as the CPT definition of
         psychological testing, require providers to prepare such a report. Medical records for a few
         inappropriate psychological testing services contained computer-generated reports, but our
         medical reviewer did not consider these reports to be adequate without additional written
         interpretation by the provider. Additionally, documentation of some inappropriate
         psychological testing services did not indicate who administered the psychological tests to
         patients.




Medicare Mental Health Services                   8                             OEI-03-99-00130
Sixteen percent of pharmacologic management services were inappropriate

         Pharmacologic management services were deemed inappropriate because providers failed to
         record important elements in beneficiaries’ charts, such as diagnosis, target symptoms,
         treatment goals, response to medication, side effects, and the like. In addition, reviewers were
         unable to determine who rendered some of these pharmacologic management services because
         progress notes were not initialed or signed.

         Some inappropriate pharmacologic management services were provided by registered nurses
         who were not qualified to render these services to Medicare beneficiaries. In two of these
         cases nurses dispensed methadone to patients, without any documentation that physicians
         provided face-to-face drug management services. Carriers’ guidelines explicitly state that the
         pharmacologic management CPT code “is not to be used for the actual administration of
         medication or the observation of a patient taking oral medication.”

Eleven percent of inappropriate mental health services were rendered by
unqualified providers

         Patients’ records for these inappropriate services indicated that registered nurses, mental health
         and substance abuse counselors, master’s-level, and bachelor’s-level practitioners rendered
         mental health services that they were not qualified to provide. In addition, billing providers
         failed to supply rendering practitioners’ licenses to perform mental health services in many of
         these cases. Almost half of services rendered by unqualified providers were group
         psychotherapy services. For two inappropriate group therapy services, providers actually
         acknowledged that group therapy was rendered by unlicensed practitioners. In another case, a
         social worker rendered individual therapy with medical evaluation and management, a service
         clearly outside the social worker’s scope of practice.



While some beneficiaries received excessive therapy
services, others did not receive needed medication
management services
         For the 303 cases referred for more extensive review, 22 percent of medical records indicated
         that patients had received more mental health services than they needed. Another 8 percent of
         records indicated that patients were in need of mental health services that may not have been
         provided.




Medicare Mental Health Services                   9                              OEI-03-99-00130
Twenty-two percent of medical records revealed that patients received mental
health services beyond what was medically indicated and necessary

         In many of these cases, medical records did not justify the duration or frequency of
         psychotherapy services. A number of chronic but stable patients received the same type of
         psychotherapy service on a weekly or even daily basis without justification. Some patients
         received individual and group psychotherapy services weekly; yet documentation did not
         demonstrate the need for this amount of therapy, or for both individual and group treatment.
         For example, a patient attended two to three individual therapy sessions per week in addition to
         once-per-week group therapy. In an extreme case, a provider billed for 67 extended individual
         psychotherapy services in 1998 without documentation of need for the 75 to 80 minute
         sessions, or the frequency of treatment.

         Both place and type of mental health service affected whether beneficiaries received more
         mental health services than necessary. Excessive services were more likely to occur when
         provided in patients’ homes and community mental health centers. Excessive services were
         also more likely to occur when the service reviewed was group psychotherapy.

More than 8 percent of medical records indicated that beneficiaries may not have
received needed services

         Reviewers found that a number of patients who were receiving psychotherapy services should
         have been evaluated for psychotropic medication. Patients’ medical records did not contain
         evidence that providers had considered medication as treatment for their mental disorders, nor
         were pharmacologic management services billed to Medicare for any of these patients in 1998.
         In addition, longer or more frequent individual psychotherapy services were indicated for a few
         patients due to their severe symptoms, but were not provided. Finally, for two psychological
         testing cases additional testing should have been performed to determine patients’ diagnoses.




Medicare Mental Health Services                  10                             OEI-03-99-00130
                           RECOMMENDATIONS

In order to address Medicare program vulnerabilities discussed in this report, we
recommend that the Health Care Financing Administration:

C	       Target problematic mental health services for pre-payment edits or post-payment
         medical review.

C	       Promote provider awareness of documentation and medical necessity requirements for
         Part B mental health services. The HCFA and its carriers could enhance provider
         understanding of and compliance with Medicare requirements through seminars, education
         workshops, and newsletters.

C	
C        Work with both carriers and mental health professionals to develop a specific and
         comprehensive listing of psychological assessments that can be correctly billed under
         psychological testing code 96100. Our office made a similar recommendation in a recently
         issued report entitled “Medicare Payments for Psychiatric Services in Nursing Homes: A
         Follow-up,” which found similar problems with psychological testing instruments.

C	       Require Medicare carriers to initiate recovery of payments for the inappropriate
         outpatient mental health services identified in this report. Our office will provide a listing
         of these claims to HCFA.


AGENCY COMMENTS

The Health Care Financing Administration concurred with these recommendations. The HCFA will ask
Medicare carriers to conduct data analysis of mental health services provided in outpatient settings with
particular attention to psychological testing and psychotherapy services. The HCFA stated that they
plan to explore a number of provider educational services that will focus on issues of medical necessity,
medical record documentation, provider qualifications, and appropriate billing and coding of outpatient
mental health services. In addition, HCFA will have the carrier clinical workgroup on psychiatric
services consider our report in developing a local medical review policy template for outpatient mental
health services. Finally, HCFA will direct Medicare carriers to recover overpayments for the
inappropriate services identified in our report. To assist HCFA with this effort, we have provided claim
data for the inappropriate services to them. In response to HCFA’s technical comment, we revised
Appendix A of the report to reflect the most current Medicare provider qualifications as cited in Title
42, Part 410 of the Code of Federal Regulations. The full text of HCFA’s comments is presented in
Appendix E.




Medicare Mental Health Services                 11                             OEI-03-99-00130
                                                                           APPENDIX A


                             Medicare Provider Requirements

Physicians

A qualified physician must be a doctor of medicine or osteopathy, a doctor of dental surgery or dental
medicine, a chiropractor, a doctor of podiatric medicine, or a doctor of optometry who is licensed by
the State in which services are performed. Services are covered only if the particular type of medical
practitioner is operating within the scope of his or her license. [Code of Federal Regulations, Title 42,
Part 410, Section 20(b)]

Clinical Psychologists

To qualify as a clinical psychologist, a practitioner must hold a doctoral degree in psychology; and be
licensed or certified at the independent practice level, by the State in which he or she practices, to
furnish diagnostic, assessment, preventive, and therapeutic services directly to individuals. [Code of
Federal Regulations, Title 42, Part 410, Section 71(d)]

Clinical Social Workers

A qualified clinical social worker must possess a master's or doctoral degree in social work; have
performed at least two years of supervised clinical social work; and be licensed or certified as a clinical
social worker by the State in which services are performed. In a State that does not provide for
licensing or certification as a clinical social worker, an individual must be licensed or certified at the
highest level of practice provided by law in the State where services are performed; and have
completed at least two years or 3,000 hours of post-master’s degree supervised clinical social work
under the supervision of a master’s-level social worker in an appropriate setting such as a hospital,
skilled nursing facility, or clinic. [Code of Federal Regulations, Title 42, Part 410, Section 73(a)]

Nurse Practitioners

A qualified nurse practitioner must be a registered professional nurse authorized to practice as a nurse
practitioner by the laws of the State where services are performed, and certified by a recognized
national certifying body that has established standards for nurse practitioners; or a registered
professional nurse authorized to practice as a nurse practitioner by the laws of the State where services
are performed who has received a Medicare billing number as a nurse practitioner by December 31,
2000; or a nurse practitioner who meets the standards described above and applies for a Medicare
billing number for the first time on or after January 1, 2001; or a nurse practitioner who meets the
standards described above, has a master’s degree in nursing, and applies for a Medicare billing number
for the first time on or after January 1, 2003. [Code of Federal Regulations, Title 42, Part 410, Section
75(b)]




Medicare Mental Health Services                  12                              OEI-03-99-00130
                                                                           APPENDIX A


Clinical Nurse Specialists

To qualify as a clinical nurse specialist, a practitioner must be a registered nurse currently licensed by
the State where services are performed and authorized to perform clinical nurse specialist services in
accordance with State law; have a master’s degree in a defined clinical area of nursing from an
accredited educational institution; and be certified by the American Nurses Credentialing Center as a
clinical nurse specialist. [Code of Federal Regulations, Title 42, Part 410, Section 76(b)]

Physician Assistants

A qualified physician assistant must be licensed by the State to practice as a physician assistant, as well
as have graduated from a physician assistant educational program accredited by the Commission on
Accreditation of Allied Health Education Programs, or have passed the national certification exam
administered by the National Commission on Certification of Physician Assistants. [Code of Federal
Regulations, Title 42, Part 410, Section 74(c)]




Medicare Mental Health Services                  13                              OEI-03-99-00130
                                                                       APPENDI X B


             OIG Reports on Medicare Mental Health Services

Nursing Facilities

Medicare Payments for Psychiatric Services in Nursing Homes: A Follow-up, OEI-02-99-00140

Mental Health Services in Nursing Facilities, OEI-02-91-00860

Acute Care and Psychiatric Specialty Hospitals

Review of Outpatient Psychiatric Services Provided by Provena St. Joseph Hospital for the Period
September 1, 1996 through November 30, 1997, A-05-00-00034

Review of Outpatient Psychiatric Services Provided by Tomball Regional Hospital for Fiscal Year
Ended June 30, 1998, A-06-99-00014

Review of Outpatient Psychiatric Services Provided by the Waterbury Hospital for Fiscal Year Ending
September 30, 1997, A-01-99-00501

Review of Outpatient Psychiatric Services Provided by the Elliot Hospital for the Fiscal Year Ending
June 30, 1998, A-01-99-00502

Ten-State Review of Outpatient Psychiatric Services at Acute Care Hospitals, A-01-99-00507

Review of Outpatient Psychiatric Services Provided by the Danbury Hospital for Fiscal Year Ending
September 30, 1997, A-01-99-00518

Review of Outpatient Psychiatric Services at Psychiatric Hospitals for Calender Year 1998,
A-01-99-00530

Review of Outpatient Psychiatric Services Provided by St. Vincent’s Hospital for Calendar Year
Ended December 31, 1997, A-02-99-01010

Review of Outpatient Psychiatric Services Provided by St. Luke’s-Roosevelt Hospital for Calendar
Year Ended December 31, 1997, A-02-99-01016

Review of Outpatient Psychiatric Services Provided by the Franklin Medical Center for the Fiscal Year
Ending September 30, 1996, A-01-98-00503

Psychiatric Outpatient Services: The Newton-Wellesley Hospital, A-01-98-00506

Psychiatric Outpatient Services: The Arbour-HRI Hospital, A-01-97-00526

Medicare Mental Health Services                14                            OEI-03-99-00130
                                                                       APPENDI X B


Partial Hospitalization Programs

Review of Partial Hospitalization Services and Fiscal Year 1997 Cost Report - New Center
Community Mental Health Services, Detroit, Michigan, A-05-00-00004

Results of Review of America’s Behavioral Health Center, A-04-98-01192

Audit of the Medicare Partial Hospitalization Program at Mental Health Corporation of Denver, A-07-
98-01263

Five-State Review of Partial Hospitalization Programs at Community Mental Health Centers,
A-04-98-02145

Reviews of Partial Hospitalization Services Provided Through Community Mental Health Centers, A-
04-98-02146

Review of St. Francis Behavioral Health Center’s Partial Hospitalization Program,
A-04-97-02141

Review of St. Jude Behavioral Health Center’s Partial Hospitalization Program, A-04-97-02142

Review of Partial Hospitalization Services and Audit of Medicare Cost Report for Community
Behavioral Services, a Florida Community Mental Health Center, A-04-96-02118 and
A-04-96-02124




Medicare Mental Health Services               15                            OEI-03-99-00130
                                                                            APPENDIX C


                                  Sample Procedure Codes


Individual Psychotherapy

Procedures 90804 through 90809 are defined as the treatment of mental illness and behavior
disturbances in which the physician establishes a professional contract with the patient and, through
definitive therapeutic communication, attempts to alleviate the emotional disturbances, reverse or
change maladaptive patterns of behavior, and encourage personality growth and development.

90804	            Individual psychotherapy, insight oriented, behavior modifying, and/or supportive, in an
                  office or outpatient facility, approximately 20 to 30 minutes face-to-face with patient.

90805             Same as procedure 90804, but with medical evaluation and management services.

90806	            Individual psychotherapy, insight oriented, behavior modifying, and/or supportive, in an
                  office or outpatient facility, approximately 45 to 50 minutes face-to-face with patient.

90807             Same as procedure 90806, but with medical evaluation and management services.

90808	            Individual psychotherapy, insight oriented, behavior modifying, and/or supportive, in an
                  office or outpatient facility, approximately 75 to 80 minutes face-to-face with patient.

90809             Same as procedure 90808, but with medical evaluation and management services.


Group Psychotherapy

90853	            Psychotherapy administered in a group setting (other than of a multiple-family group)
                  with a trained group leader in charge of several patients. Personal and group dynamics
                  are discussed and explored in a therapeutic setting allowing emotional catharsis,
                  instruction, insight and support.




Medicare Mental Health Services                   16                             OEI-03-99-00130
                                                                            APPENDIX C


Psychological Testing

96100	            Psychological testing (includes psychodiagnostic assessment of personality,
                  psychopathology, emotionality, intellectual abilities, e.g., WAIS-R, Rorschach, MMPI)
                  with interpretation and report, per hour. Code 96100 includes the administration,
                  interpretation and scoring of tests mentioned in the CPT description and other medically
                  accepted tests for evaluation of intellectual strengths, psychopathology,
                  psychodynamics, mental health risks, insight, motivation and other factors influencing
                  treatment and prognosis.


Pharmacologic Management

90862	            Code 90862 is intended for use by the physician who is prescribing pharmacologic
                  therapy for a patient with an organic brain syndrome or whose diagnosis is in the ICD-9
                  range of 290.0-319, and is being managed primarily by psychotropic drugs. It may
                  also be used for the patient whose psychotherapy is being managed by another health
                  professional and the billing physician is managing the psychotropic medication. The
                  service includes prescribing, monitoring the effect of medication, and adjusting the
                  dosage. Any psychotherapy provided is minimal and is usually supportive only.




Medicare Mental Health Services                   17                            OEI-03-99-00130
                                                                                                APPENDIX                   D


                            Estimates and Confidence Intervals

                                                                                                                        PAGE

TABLE 1.          Inappropriate Outpatient Mental Health Services . . . . . . . . . . . . . . . . . . . . . . . . . 19


TABLE 2.          Medical Review Determinations for Inappropriate Services . . . . . . . . . . . . . . . . . 19


TABLE 3.          Frequency of Inappropriate Services by Type of Mental Health Service . . . . . . . 20


TABLE 4.	 Frequency of Inappropriate Individual Psychotherapy Services by

          Length of Session . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


TABLE 5.          Beneficiaries Received More Services Than Necessary . . . . . . . . . . . . . . . . . . . . 20


TABLE 6.          More Services Than Necessary by Place of Service . . . . . . . . . . . . . . . . . . . . . . . 21


TABLE 7.          More Services Than Necessary by Type of Mental Health Service . . . . . . . . . . . . 21


TABLE 8.          Beneficiaries May Not Have Received Needed Services . . . . . . . . . . . . . . . . . . . 21





Medicare Mental Health Services                                18                                       OEI-03-99-00130
                                                                            APPENDIX               D


                          Estimates and Confidence Intervals


         The tables below contain statistical estimates presented in the Findings section of this report.
         We used the Survey Data Analysis (SUDAAN) software package to compute percentages,
         totals, and confidence intervals. These estimates are weighted based on the stratified random
         sample design and are reported at the 95 percent confidence level.


Table 1.
                            Inappropriate Outpatient Mental Health Services

                                                      Point Estimate    95% Confidence Interval
 Total Medicare Allowances in 1998 for                $185,287,513      $151,251,639 - $219,323,387
 Inappropriate Outpatient Mental Health Services
 Percent of Inappropriate Outpatient Mental           33.58%            28.27% - 38.89%
 Health Services
 Percent of Sample Services Not Supported by          25.22%            20.36% - 30.08%
 Beneficiaries’ Medical Records
 Percent of Sample Services where No Response         5.61%             3.06% - 8.16%
 was Submitted
 Percent of Sample Services where Response            2.74%             0.86% - 4.62%
 Contained No Documentation


Table 2.
                     Medical Review Determinations for Inappropriate Services

                                           Percent of Services          95% Confidence Interval
 Provider Not Qualified                    11.03%                       4.29% - 17.77%
 Medically Unnecessary                     22.64%                       13.74% - 31.54%
 Billed Incorrectly                        40.80%                       29.61% - 51.99%
 Insufficient Documentation                64.87%                       54.07% - 75.67%




Medicare Mental Health Services                     19                           OEI-03-99-00130
                                                                                              APPENDIX                  D



Table 3.
                                     Frequency of Inappropriate Services
                                      by Type of Mental Health Service

                                                   Percent of Services                    95% Confidence Interval
 Group Psychotherapy                               50.03%                                 37.33% - 62.73%
 Individual Psychotherapy                          34.09%                                 26.45% - 41.73%
 Psychological Testing                             41.98%                                 31.18% - 52.78%
 Pharmacologic Management                          15.65%                                 6.87% - 24.43%
Difference between percentages is significant at above the 95% confidence level. (Chi-square statistic=22.98, df=3, p<0.0001)




Table 4.
                                    Frequency of Inappropriate Individual
                                  Psychotherapy Services by Length of Session

 Length of Individual Psychotherapy                          Percent of Services           95% Confidence
 Session                                                                                   Interval
 20-30 Minutes                                               29.67%                        14.73% - 44.61%
 45-50 Minutes                                               33.40%                        24.09% - 42.71%
 75-80 Minutes                                               82.09%                        73.51% - 90.67%
Difference between percentages is significant at above the 95% confidence level. (Chi-square statistic=56.97, df=2, p<0.0001)




Table 5.
                          Beneficiaries Received More Services Than Necessary

                                                              Percent of                95% Confidence Interval
                                                              Cases
 Referred Cases where Beneficiaries Received                  22.49%                    15.65% - 29.33%
 More Services than Necessary




Medicare Mental Health Services                              20                                      OEI-03-99-00130
                                                                                              APPENDIX                  D

Table 6.
                                          More Services Than Necessary
                                               by Place of Service

                                                       Percent of Cases                     95% Confidence
                                                                                            Interval
 Home                                                  41.67%                               25.52% - 57.82%
 Community Mental Health Center                        40.87%                               22.45% - 59.29%
 Custodial Care Facility                               25.00%                               7.63% - 42.37%
 Office                                                17.24%                               9.77% - 24.71%
Difference between percentages is significant at above the 95% confidence level. (Chi-square statistic=10.27, df=3, p=0.017)



Table 7.
                                         More Services Than Necessary
                                        by Type of Mental Health Service

                                                        Percent of Cases                    95% Confidence
                                                                                            Interval
 Group Psychotherapy                                    38.34%                              24.87% - 51.81%
 Individual Psychotherapy without                       20.27%                              9.98% - 30.56%
 Evaluation and Management
 Pharmacologic Management                               20.10%                              0.68% - 39.52%
 Individual Psychotherapy with                          19.75%                              6.15% - 33.35%
 Evaluation and Management
 Psychological Testing                                  4.17%                               0 - 9.85%
Difference between percentages is significant at above the 95% confidence level. (Chi-square statistic=22.52, df=4, p=0.0002)




Table 8.
                         Beneficiaries May Not Have Received Needed Services

                                                               Percent of                95% Confidence Interval
                                                               Cases
 Referred Cases where Beneficiaries May Not                    8.45%                     3.82% - 13.08%
 Have Received Needed Services




Medicare Mental Health Services                              21                                      OEI-03-99-00130
                                                   APPENDIX
                                                      E

             Health Care Financing Administration Comments





Medicare Mental Health Services    22                OEI-03-99-00130
                                       APPENDIX
                                          E




Medicare Mental Health Services   23    OEI-03-99-00130
                                       APPENDIX
                                          E




Medicare Mental Health Services   24    OEI-03-99-00130
                                       APPENDIX
                                          E




Medicare Mental Health Services   25    OEI-03-99-00130
                                       APPENDIX
                                          E




Medicare Mental Health Services   26    OEI-03-99-00130
